Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


   FAMILY HEALTH CENTERS
      OF SAN DIEGO, INC.,
  CLAIMED UNALLOWABLE AND
 INADEQUATELY DOCUMENTED
COSTS FOR HEALTH RESOURCES
AND SERVICES ADMINISTRATION
      GRANTS UNDER THE
        RECOVERY ACT
  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                      Kay L. Daly
                                               Assistant Inspector General

                                                      February 2013
                                                      A-09-11-01010
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Health Centers Consolidation Act of 1996, P.L. No. 104-299, consolidated the Health Center
Program under section 330 of the Public Health Service Act. This program provides
comprehensive primary health care services through planning and operating grants to health
centers. Health centers are nonprofit private or public entities that serve designated medically
underserved populations and areas, as well as vulnerable populations of migrant and seasonal
farmworkers, the homeless, and residents of public housing. Within the U.S. Department of
Health and Human Services, the Health Resources and Services Administration (HRSA)
administers the Health Center Program.

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
enacted February 17, 2009, HRSA received $2.5 billion, $2 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Health Information Technology Implementation
(HITI), Capital Improvement Program (CIP), Increased Demand for Services (IDS), and New
Access Point (NAP) grants.

Family Health Centers of San Diego, Inc. (Health Center), is a nonprofit organization that has
30 locations throughout San Diego County, California, and provides medical, dental, and mental
health services. The Health Center is funded primarily by grants from and contracts with the
State of California and county of San Diego, Federal grants, public and private health insurance
programs, and patient service revenues.

During calendar years 2009 and 2010, HRSA awarded the Health Center approximately
$10.8 million in Recovery Act funds. These awards consisted of approximately $4.8 million
under two HITI grants to improve the quality of health care provided in health centers using
health information technology, $2.5 million under a CIP grant to construct a new building,
approximately $2.2 million under an IDS grant to increase services at existing sites, and
$1.3 million under an NAP grant for a new service site to improve quality of health care. We
reviewed costs totaling $7,265,876 that the Health Center claimed under these grants for the
period March 1, 2009, through June 30, 2011.

As a nonprofit organization receiving Federal funds, the Health Center must comply with Federal
cost principles in 2 CFR part 230, Cost Principles for Non-Profit Organizations. These cost
principles require that grant costs claimed for Federal reimbursement be allowable and
adequately documented, including the requirement that the grantee maintain signed personnel
activity reports that reflect an after-the-fact determination of the actual activity of each employee
working on Federal awards.




                                                       i
OBJECTIVE

Our objective was to determine whether the costs that the Health Center claimed were allowable
in accordance with the terms of the Recovery Act grants and applicable Federal requirements.

SUMMARY OF FINDINGS

Of the $7,265,876 in costs reviewed, $2,726,151 was allowable in accordance with the terms of
the Recovery Act grants and applicable Federal requirements. However, the Health Center
claimed $113,759 in unallowable rental costs and related indirect costs and $4,425,966 in
inadequately documented salary and salary-related costs. The salary costs were inadequately
documented because the Health Center did not maintain personnel activity reports reflecting an
after-the-fact determination of the actual activity of each employee. The $4,425,966 consisted of
$3,143,490 in salaries and wages, $727,572 in fringe benefits, and $554,904 in indirect costs
related to the salaries and wages and fringe benefits.

The Health Center claimed unallowable rental costs because its officials were unaware of the
Federal requirement limiting rental costs under a “less-than-arms-length” lease to the amount
that would have been allowable had title to the property vested in the Health Center. In addition,
Health Center officials acknowledged that they had claimed salaries and wages on the basis of
budget estimates and that the Health Center’s policies and procedures did not comply with
Federal requirements.

RECOMMENDATIONS

We recommend that HRSA:

   •   require the Health Center to refund to the Federal Government $113,759 for unallowable
       rental costs and related indirect costs,

   •   either require the Health Center to refund to the Federal Government $4,425,966 for
       inadequately documented salary and salary-related costs or work with the Health Center
       to determine whether any of the costs claimed were allowable,

   •   educate Health Center officials on the Federal requirement limiting allowable rental costs
       under “less-than-arms-length” leases, and

   •   ensure that the Health Center maintains personnel activity reports in compliance with
       Federal requirements.

FAMILY HEALTH CENTERS OF SAN DIEGO, INC., COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Health Center described how it had used its grant
funding and stated that it had met or exceeded the Recovery Act grant objectives for all five
grants. The Health Center also provided information in response to our finding on rental and



                                                      ii
related indirect costs and disagreed with our finding on salary and salary-related costs. The
Health Center stated that it looked forward to working with HRSA to resolve the findings.
Nothing in the Health Center’s comments caused us to change our findings or recommendations.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In written comments on our draft report, HRSA concurred with our recommendations and
provided information on actions that it planned to take to address our recommendations.




                                                   iii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION........................................................................................................................ 1

          BACKGROUND ............................................................................................................... 1
              Health Center Program .......................................................................................... 1
              American Recovery and Reinvestment Act of 2009.............................................. 1
              Family Health Centers of San Diego, Inc. ............................................................. 1
              Federal Requirements for Grantees ....................................................................... 1

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................. 2
               Objective ................................................................................................................ 2
               Scope ...................................................................................................................... 2
               Methodology .......................................................................................................... 2

FINDINGS AND RECOMMENDATIONS .............................................................................. 3

          UNALLOWABLE COSTS CLAIMED FOR FEDERAL REIMBURSEMENT ............. 4
              Federal Requirements ........................................................................................... 4
              Rental and Related Indirect Costs .......................................................................... 4

          INADEQUATELY DOCUMENTED COSTS CLAIMED
            FOR FEDERAL REIMBURSEMENT .......................................................................... 5
                Federal Requirements ........................................................................................... 5
                Salary and Salary-Related Costs ............................................................................ 5

          RECOMMENDATIONS ................................................................................................... 6

          FAMILY HEALTH CENTERS OF SAN DIEGO, INC., COMMENTS ......................... 6

          OFFICE OF INSPECTOR GENERAL RESPONSE ........................................................ 7

          HEALTH RESOURCES AND SERVICES
            ADMINISTRATION COMMENTS ............................................................................ 7

APPENDIXES

          A: FAMILY HEALTH CENTERS OF SAN DIEGO, INC., COMMENTS

          B: HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS




                                                                             iv
                                       INTRODUCTION

BACKGROUND

Health Center Program

The Health Centers Consolidation Act of 1996, P.L. No. 104-299, consolidated the Health Center
Program under section 330 of the Public Health Service Act (42 U.S.C. § 254b). This program
provides comprehensive primary health care services through planning and operating grants to
health centers. Health centers are nonprofit private or public entities that serve designated
medically underserved populations and areas, as well as vulnerable populations of migrant and
seasonal farmworkers, the homeless, and residents of public housing. Within the
U.S. Department of Health and Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the Health Center Program.

American Recovery and Reinvestment Act of 2009

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
enacted February 17, 2009, HRSA received $2.5 billion, $2 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Health Information Technology Implementation
(HITI), Capital Improvement Program (CIP), Increased Demand for Services (IDS), and New
Access Point (NAP) grants.

Family Health Centers of San Diego, Inc.

Family Health Centers of San Diego, Inc. (Health Center), is a nonprofit organization that has
30 locations throughout San Diego County, California, including 15 primary care clinics,
3 dental clinics, an HIV clinic, and 3 mobile medical units that provide health care services at
approximately 70 community sites. The Health Center provides medical, dental, and mental
health services. The Health Center is funded primarily by grants from and contracts with the
State of California and the county of San Diego, Federal grants, public and private health
insurance programs, and patient service revenues.

During calendar years 2009 and 2010, HRSA awarded the Health Center approximately
$10.8 million in Recovery Act funds. These awards consisted of approximately $4.8 million
under two HITI grants to improve the quality of health care provided in health centers using
health information technology, $2.5 million under a CIP grant to construct a new building,
approximately $2.2 million under an IDS grant to increase services at existing sites, and
$1.3 million under an NAP grant for a new service site to improve quality of health care.

Federal Requirements for Grantees

Federal regulations (45 CFR part 74) establish uniform administrative requirements governing
HHS grants awarded to nonprofit organizations. As a nonprofit organization receiving Federal


                                                       1
funds, the Health Center must comply with Federal cost principles in 2 CFR part 230, Cost
Principles for Non-Profit Organizations, incorporated by reference at 45 CFR § 74.27(a). These
cost principles require that grant costs claimed for Federal reimbursement be reasonable,
allocable, and otherwise allowable. The HHS awarding agency may include additional
requirements that are considered necessary to attain the award’s objectives.

To help ensure that Federal requirements are met, grantees must maintain financial management
systems in accordance with 45 CFR § 74.21. These systems must provide for accurate, current, and
complete disclosure of the financial results of each HHS-sponsored project or program (45 CFR
§ 74.21(b)(1)) and must ensure that accounting records are supported by source documentation
(45 CFR § 74.21(b)(7)). Grantees also must have written procedures for determining the
allowability of costs in accordance with applicable Federal cost principles and the terms and
conditions of the award (45 CFR § 74.21(b)(6)).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the costs that the Health Center claimed were allowable
in accordance with the terms of the Recovery Act grants and applicable Federal requirements.

Scope

Of the $10,860,240 that HRSA awarded to the Health Center, we limited our review to costs
totaling $7,265,876 that the Health Center claimed under the HITI, CIP, IDS, and NAP grants for
the period March 1, 2009, through June 30, 2011. 1 We did not perform an overall assessment of
the Health Center’s internal controls. Rather, we reviewed only the internal controls that
pertained to our objective.

We conducted our audit from August 2011 to May 2012 and performed our fieldwork at the
Health Center’s administrative office in San Diego, California.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   reviewed the Health Center’s HRSA grant applications and supporting documentation;

    •   reviewed the Health Center’s federally negotiated agreements for indirect cost and fringe
        benefit rates;



1
 Of the $7,265,876, the Health Center claimed costs totaling $3,125,100 for the two HITI grants, $646,161 for the
CIP grant, $2,194,615 for the IDS grant, and $1,300,000 for the NAP grant.


                                                               2
   •   interviewed Health Center personnel to gain an understanding of the Health Center’s
       accounting system, internal controls over the claiming of costs for Federal
       reimbursement, and HITI, CIP, IDS, and NAP grant activities;

   •   reviewed the Health Center’s procedures on accounting for funds, documenting
       transactions, making estimates, preparing financial reports, withdrawing Federal funds,
       and processing payroll;

   •   reviewed the Health Center’s independent auditor’s reports and related financial
       statements for fiscal years 2009, 2010, and 2011;

   •   reviewed the Health Center’s supporting documentation (such as payroll records,
       vendors’ invoices, canceled checks, and contracts) to determine the allowability of costs
       claimed under the five grants; and

   •   discussed the results of our review with Health Center officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Of the $7,265,876 in costs reviewed, $2,726,151 was allowable in accordance with the terms of
the Recovery Act grants and applicable Federal requirements. However, the Health Center
claimed $113,759 in unallowable rental costs and related indirect costs and $4,425,966 in
inadequately documented salary and salary-related costs. The salary costs were inadequately
documented because the Health Center did not maintain personnel activity reports reflecting an
after-the-fact determination of the actual activity of each employee. The $4,425,966 consisted of
$3,143,490 in salaries and wages, $727,572 in fringe benefits, and $554,904 in indirect costs
related to the salaries and wages and fringe benefits.

The Health Center claimed unallowable rental costs because its officials were unaware of the
Federal requirement limiting rental costs under a “less-than-arms-length” lease to the amount
that would have been allowable had title to the property vested in the Health Center. In addition,
Health Center officials acknowledged that they had claimed salaries and wages on the basis of
budget estimates and that the Health Center’s policies and procedures did not comply with
Federal requirements.




                                                      3
UNALLOWABLE COSTS CLAIMED FOR FEDERAL REIMBURSEMENT

Federal Requirements

Federal cost principles (2 CFR part 230, Appendix B, § 43.c.) state:

       Rental costs under “less-than-arms-length” leases are allowable only up to the
       amount … that would be allowed had title to the property vested in the non-profit
       organization. For this purpose, a less-than-arms-length lease is one under which
       one party to the lease agreement is able to control or substantially influence the
       actions of the other. Such leases include, but are not limited to those between …
       a non-profit organization and a director, trustee, officer, or key employee of the
       non-profit organization or his immediate family, either directly or through
       corporations, trusts, or similar arrangements in which they hold a controlling
       interest. For example, a non-profit organization may establish a separate
       corporation for the sole purpose of owning property and leasing it back to the
       non-profit organization.

Federal cost principles (2 CFR part 230, Appendix B, § 43.b.) also state that the amount of
allowable rental costs “… would include expenses such as depreciation or use allowance,
maintenance, taxes, and insurance.”

Rental and Related Indirect Costs

The Health Center claimed for Federal reimbursement a total of $113,759 in unallowable rental
and related indirect costs:

   •   Contrary to Federal cost principles, the Health Center did not limit rental costs claimed
       under the NAP grant for a new service site to the amount that would have been allowable
       had title to the property vested in the Health Center. The Health Center claimed
       $201,383 in rental costs paid to a limited liability partnership that it had established for
       the sole purpose of owning the property and leasing the property back to the Health
       Center (a “less-than-arms-length” lease). After reviewing the supporting documentation
       provided by the Health Center, we determined that the allowable rental costs should have
       been limited to the $116,488 that would have been allowable had title to the property
       vested in the Health Center. As a result, the Health Center’s claim exceeded the
       allowable rental costs by $84,895.

   •   The Health Center claimed $28,864 in unallowable indirect costs related to the
       unallowable rental costs.

Health Center officials stated that they claimed unallowable costs because they were not aware
of the Federal requirement limiting allowable rental costs under “less-than-arms-length” leases.




                                                      4
INADEQUATELY DOCUMENTED COSTS CLAIMED
FOR FEDERAL REIMBURSEMENT

Federal Requirements

Federal cost principles (2 CFR part 230, Appendix A, § A.2.g.) state that to be allowable under
an award, costs must be adequately documented.

Federal cost principles (2 CFR part 230, Appendix B, § 8.m.(1)) state: “Charges to awards for
salaries and wages, whether treated as direct costs or indirect costs, will be based on documented
payrolls approved by a responsible official(s) of the organization. The distribution of salaries
and wages to awards must be supported by personnel activity reports ….” In addition, § 8.m.(2)
states: “Reports reflecting the distribution of activity of each employee must be maintained for
all staff members (professionals and nonprofessionals) whose compensation is charged, in whole
or in part, directly to awards.”

Federal cost principles (2 CFR part 230, Appendix B, § 8.m.(2)(a)) specify that personnel
activity reports “… must reflect an after-the-fact determination of the actual activity of each
employee. Budget estimates (i.e., estimates determined before the services are performed) do
not qualify as support for charges to awards.”

Salary and Salary-Related Costs

The Health Center claimed for Federal reimbursement a total of $4,425,966 in inadequately
documented salary and salary-related costs: 2

    •   Contrary to Federal cost principles, the Health Center did not adequately document
        $3,143,490 in salaries and wages claimed under the IDS, HITI, and NAP grants. The
        Health Center charged salaries and wages based on documented payrolls approved by
        responsible officials of the Health Center. Our review of the Health Center’s payroll
        records confirmed that the Health Center incurred these costs. However, the Health
        Center did not maintain personnel activity reports reflecting the distribution of activity of
        each employee whose compensation was claimed under the grants. Instead, the Health
        Center supported its salaries and wages with budget estimates determined before services
        were performed. Budget estimates do not qualify as adequate supporting documentation
        for salaries and wages claimed under the grants.

    •   The Health Center claimed $727,572 in fringe benefits and $554,904 in indirect costs
        related to the inadequately documented salaries and wages.

Health Center officials acknowledged that they had claimed salaries and wages on the basis of
budget estimates and that the Health Center’s policies and procedures did not comply with
Federal requirements.

2
 Of the $4,425,966, the Health Center claimed $2,194,615 under the IDS grant, $1,490,502 under the two HITI
grants, and $740,849 under the NAP grant.




                                                             5
RECOMMENDATIONS

We recommend that HRSA:

   •   require the Health Center to refund to the Federal Government $113,759 for unallowable
       rental costs and related indirect costs,

   •   either require the Health Center to refund to the Federal Government $4,425,966 for
       inadequately documented salary and salary-related costs or work with the Health Center
       to determine whether any of the costs claimed were allowable,

   •   educate Health Center officials on the Federal requirement limiting allowable rental costs
       under “less-than-arms-length” leases, and

   •   ensure that the Health Center maintains personnel activity reports in compliance with
       Federal requirements.

FAMILY HEALTH CENTERS OF SAN DIEGO, INC., COMMENTS

In written comments on our draft report, the Health Center described how it had used its grant
funding and stated that it had met or exceeded the Recovery Act grant objectives on all five
grants. The Health Center also provided information in response to our finding on rental and
related indirect costs and disagreed with our finding on salary and salary-related costs. The
Health Center stated that it looked forward to working with HRSA to resolve the findings.

   •   Regarding our first finding, the Health Center stated that it had previously believed it was
       acceptable to charge to the grant market-rate rent for the property, but it had become
       aware of requirements related to “less-than-arms-length” leases and had adjusted its lease
       policies. The Health Center also stated that it would welcome additional education or
       technical support from HRSA. The Health Center commented that it had incurred
       significant costs for establishing and operating Lemon Grove Family Health Center and
       asked for an opportunity to work with HRSA to allocate other costs that it had not
       allocated to the NAP award if HRSA determines that a portion of rental costs is
       unallowable.

   •   The Health Center stated that it “strongly refutes” our second finding. The Health Center
       stated that it had charged salary and salary-related costs to the grant on the basis of the
       employees’ initial Action Forms, which required approval by the employee, supervisor,
       director, and director of human resources. The Health Center stated that the monthly
       accounting department and quarterly leadership reviews of its salary allocations were
       appropriate after-the-fact determinations and that there was no need to review the
       allocations during each pay period because most employees were given one role with one
       purpose that did not change. The Health Center also stated that subsequent to the start of
       our fieldwork, it had implemented a new time-and-effort tracking system to ensure
       compliance with Federal requirements. The Health Center commented that it strongly
       maintained that its salary and salary-related costs were allowable and welcomed the


                                                      6
       opportunity to explain to HRSA its tracking system and share with HRSA its
       documentation for salaries and wages.

The Health Center’s comments are included in their entirety as Appendix A.

OFFICE OF INSPECTOR GENERAL RESPONSE

Regarding our first finding, we maintain that the Health Center claimed $113,759 in unallowable
rental costs and related indirect costs under the NAP grant. Any other costs that the Health
Center could have allocated to the NAP grant were outside the scope of our review.

Regarding our second finding, we maintain that the Health Center claimed a total of $4,425,966
in inadequately documented salary and salary-related costs. We acknowledged in our report that
our review of the Health Center’s payroll records confirmed that the Health Center incurred these
costs and that the Health Center charged salaries and wages based on documented payrolls
approved by responsible officials of the Health Center. However, the Health Center supported
salaries and wages allocated to the IDS, HITI, and NAP grants with budget estimates determined
before services were actually performed. The employees’ initial Action Forms that the Health
Center used to charge salaries and wages were generated before actual activity took place;
therefore, these forms constituted budget estimates of salary costs. Federal cost principles make
clear that budget estimates do not qualify as support for charges to awards.

Nothing in the Health Center’s comments caused us to change our findings or recommendations.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In written comments on our draft report, HRSA concurred with our recommendations and
provided information on actions that it planned to take to address our recommendations.
HRSA’s comments are included in their entirety as Appendix B.




                                                     7
APPENDIXES
                                                                                                                                    Page 1 of 4


APPENDIX A: FAMILY HEALTH CENTERS OF SAN DIEGO, INC., COMMENTS


                             FAMI LY H EALTIl CENTERS OF SAN D IEGO
                             821 Gat~y     Cern.,
                                                WI :', San I)iq:o. CA 92102
                             T.1619-51S-2300 ' fox619':U7-1&s6 · www.fIlCSD.~



 o    BacbAra 

      Family Health Cent... 

      170SMiwonBoukv..... 
                   September 10, 2012
      Sao    Oi<t<>. C A 92109 

 o    Diad InfanlI-kaIth ~
      )379 ~ I C'll<lll B""ko.~               Ms. Lori A. Ahlstrand
      Sao Diego, CA 9211S                     Regional Inspector General fo r Audit Services
o     a.-Av""~
      Famlly fI•• hh Cm!er
                                              DHHS/Office of Inspector General
      111 1 W..sI Chase Avenue                Office of Audit Scrvices, Region IX
      I!J Cojon, CA 920'20                    90 - th Street, Suite 3-650
o ChuI.ViD   

  funily Hcabh         eeDlt< 

                                              San Francisco, CA 94103
      lSI LiadioAvan.. 

      Chula \'~ c.-\. 91910 

                                              Report #A-09-10-OI 010
o 	rami]y
   CiITHci~
          Health C..n..
      ~S-4    E! Cojon Bwk:vard               Dear Ms. Ahlstrand:
     s..n ])j<g<>, CA 9211 S
o    Diamond N~""'"
     Farni!) HeokhC.,,,... 

                                       
      Family Health Centers of San Diego (f HCSD) has reviewed the Office of
     no Euclid "Vatue. Suit<.w                Inspector General (OIG) draft report entitled "Family Health Centers of San
     SUI     Die,.,. CA 92114                 Diego, Inc., Claimed Unallov.able Costs Against Recovery Act Grants." In
o 	family
   llown!<>Wn 

           Health e _              

                                              response, FHCSD would like to describe how we met, and in many cases
      lI'S Dro.d,...,.                        exceeded, the goals and purposes of the ARRA funding and offer a detailed
     ~.., DiOi<'. CA 92101
                                              explanation for our disagreement with one of the findings.
O~-
 rornily HahhC..,1cr
 1-40 Elm SII«t                               FHCSD received and implemented five ARRA grants benefiting low income,
     S... Di~CA92101
                                              uninsured and medically undcrscrvcd persons. The details of the grants are as
o (ito>ssmMl Sprill& ' -alley 

  Family llea1th C....... 

                                              follows :
     niB Jom""". Rl>iOIl 

     SpriDf; Villey. CA'I l m 

                                                    • 	 As a result of $1,300,000 in New Access Point (NAP) funding,
o    Healthy Oe>.lnpm.... Savi..,..
                                                        leveraged with $163,710 in local grant funding and almost three million
     Ccnttal Rogioo
     2114 NotiOD8.l AvcnLl<                             dollars in FI·ICSD agency resources, FHCSD established the new
     San Diego. CA 92113
                                                        Lemon Gro\"c Family Health Center. During the project period of
o    HcaJthy Development ServiceJ­
     aa., Rt&ion                                        711/09-4/30111, the new health center served 2,785 patients through
     11] ~  BnlOIdwoy 
                                 5,803 patient visits. Thc health cenler continued its path of significant
     ~J   Cojm, CA 91021 

                                                        growth after the project period, sen'ing 6,035 patients through 12,561
o Family
  t.cmonGro,.
         lkahb C<nt<r                                   patient "isits in 2011 alone, 45% of whom were uninsured and 8]%
     1S92U1OlOC!,,~                                     lived at or below 100% of the Federal Poverty Level.
     LcmonGrtlvt, CA 91945
o    l.opn HciabU
     Ftmily Coom.c:ling Cmlc:r                         The funding supported an average of 4.77 new FTEs throughout the
     2:!114 NlIIlorW Ave,,,,,,                         project period. And while only $150,000 of the NAP funding was
     Sao Diollo.CA 92113
                                                       allocated for capital and equipment expenditures, FHCSD leveraged
o Lapd  Heigh..
  Famil) lkaIth Cema
                                                       over $2,450,000 million to purchase the property and $783,659 to
     1809 Noli<ma! A VlZI""                            complete major renovations. The economic impact of the new health
     S... Di"ljO, CA 91113
                                                       center for both construction and ongoing operations is substantial.
0 .... ....
     FOIDil), IIooItb C.." ... 

     Jj44 30ch Stnlct 
                             • 	 As a result in $2,193,615 in Increased Demand for Services (IDS)
     Sm~. CA921 04
                                                        funding, [o'HCSD expanded access 10 care and increased services
o SMmw>      Height<
  r...,ily lkalth Ccn!<r                                through:
     2J911s1and A.en""
     Son Diego, CA 92 102

o    T..,. lI..lth CenI..
     1643 Lop!! A~en ..
     Sm Diego. CA 92113
                                                                                                      Page 2 of 4




          o 	 Expanded after-hours medical care on Saturdays at 3 clinic locations;
          o 	 A new integrated mental healthcare program at Logan Heights Family Health
              Center;
          o 	 The hiringofa new OD/GYN;
          o 	 A new Care Coordinator Department led by a new Managed Care Coordinator to
              help patients access and orient to FHCSD.
          o 	 The hiring of 2 new Certified Application Assislors to help patients enroll in
              public !I!lsistance progrnms.
          o 	 The hiring of II new IIiV Outreach Worker to bring lliV + persons into care and
              increase prevention activities
          o 	 Strengthening our IT, HR, and Accounting infrastructure so they had the capacity
              to support the clinical sites' increased demand for their services.
      These   increa~ed   services gave FHCSD the capacity to serve 107,185 new patients
      through 330,042 patient visits durin g the project period of711/09-41301l1.

      The IDS funding supported an average of 13.70 new FTEs throughout the project period.

   • 	 As a result of $2,500,000 in Construction in Progress (CIP) funding, lc\'craged with
       $2,161,999 in additional grant & prh"ate funding and $1,325,954 in FHCSD agency
       resources, FHCSD constructed the ncw City Heights Family Health Center. This
       beautiful new 48,000 square foot facility owned by FHCSD replaced an old 5,000 square
       foot leased storefront facility. In ils first three months of operation in the new building,
       the clinic care team saw 4,597 patients, roughly half of what thc previous clinic could
       accommodate in an entire year.

      The CIP funding supported 4.61 new construction FTEs during the project period.

   • 	 As a result of $4,465,625 in Health Information Technology Implementation (HITI)
      funding, leveraged with millions of dollars in FHCSD agency resources and staff timc,
      rHCSD:
         o 	 Developed and deployed an EHR-Nursing system;
         o 	 Developed and deployed an EHR-Dental system;
         o 	 Developed and deployed a nationally certified EHR-Medical system; and
         o 	 Established an effective HCCN with another similar sized health center in New
             Mexico and local university partners.

      This significant achievement is transfonning the provision of care at FHCSV, allowing
      for new quality initiatives and enabling our July 2011 certification as a Joint Commission
      Primary Care Medical Home.

      The HITI funding supported 8 new FTEs during the proje;;t period.

As these numhers demonstrate, FHCSD met andlor exceeded our ARM grant objectives on all
five grants.
                                                                                                    Page 3 of 4




The OlG's draft report identifies two primary findings. The first slates that FHCSD claimed
$:I 13,759 in unallowable rental and related indirect costs. These costs were clllimed as part of
the NAP grant and represent the difference between "market rale rent" and the costs allowed
under II "less-than-anns-length" leasc. FHCSD pTCviously believed it was acceptable to charge
market rate rent for the property to the grant. Numerous past external audits failed to correct
FHCSD's understanding on this requirement. Now that we are aware of the additional
requirements related to "less-than-anns-length"' leases, we have adjusted our related lease and
policies. We believe we are currently in full compliance on this issue; however, we would
welcome any additiona! education or technical support from HRSA.

During the NAP grant period, FHCSD incurred significant costs for the establishment IIJld
operation of Lemon Grove Family Health Center that were not allocated to the NAP award.
Should HRSA determine that a portion of our rent claims are Wlallowable, we would like the
opportWlity to work with HRSA to allocate other unreimborSl.:-d costs to the grant.

The second finding states that FHCSD claimed $4,425.966 for inadequately documented salary
and salary-related costs. FHCSD strongly refutes this finding.

During the OIG audit, FHCSD provided the aoditors documentation regarding our salary
allocation process, cost center calcolations, draw down activities, payroll records and after Ihe
fact determinations.

FHCSD charged these positions to the grant based on the employee's initial Action Form which
requires cmployee, supervisor, director and the Director of Human Resources approval. ·'bc
allocations were then reyiewed monthly by the accounting departmcnt and the sopervising
director, and quarterly by senior leadership.

Many of the positions funded by FHCSD's ARRA grants were full time positions. In the limited
instan!;:es that the funds supported part time positions, they were for set days, times, and or
locations that did not vary over time. In FHCSD's opinion, the monthly accoun ting statement
review and quarterly leadership reviev.s were appropriate aller the fact determinations. There
was no need to review the allocation during each pay period- as most employees were given one
role with one purpose that did not change.

For example, the new OB/GYN's sole job was to provide on/GYN clinical sen·iees. The new
mental health therapist only provided integrated mental health at Logan Heights Family Health
Center. The costs charged 10 the grant represent an accurate account of time spent on the
reported activities.

However, in planning before the OIG audit, and subsequent to the OIG filed audit, FHCSD
implemented a new time and effort tracking system. In order to ensure clear compliance with the
federal standards, FHCSD supervisors now verify grant funding allocatio ns at the end of cach
two week pay period for all employees, regardless whether job duties or hours have changed.
While we believe this new electronic system ensures FHCSD is in eomplillJlce with the strictest
OIG interpretation of the regulations, we strongly maintain that our ARRA salary and salary­
related costs were allowable during the project period. We would welcome the opportunity to
                                                                                                    Page 4 of 4




explain our ARRA- relaled salary and wage tracking systems and share our documentation with
HRSA.

FHCSD is a federally qualified health center with a longstanding track record of excellent
accoWlting controls, grant tracking and grant billing systems. This is evidenced by the fact that
OUf organization has not received a management letter as part of our independent external audit
in over two decades. We take our responsibility to appropriately steward our federal grant funds
yery seriously. We look forward to working together with HRSA to resolve these audit findings .

Please leI me know if you have questions or need additional infonnation. I can be reached III
(6\9) 5\5-2301 or "ia email at fran@fhcsd.org.

Sincerely,

/FRAN BUTLER-COHENI

Pm!! Butler-Cohen
CEO
                                                                                                               Page 1 of3


                 APPENDIX B: HEALTH RESOURCES AND SERVICES 

                         ADMINISTRATION COMMENTS 



/'' '7#
( •••• ::)~   DEPARTMENT OF HEALTH & HUMAN SERVICES                                      Health Resources and Services
                                                                                         Administration


                                                                                         Rockville, MD 20857



                                                     DEC   18




              TO:            Inspector General

              FROM :         Administrator

              SUBJECT:       O[G Draft Report: " Family Health Centers of San Diego, Inc ., Claimed
                             Unallowable and Inadequately Documented Costs for Health Resources
                             and Serv ices Administration G rants Unde r the Recovery Act"
                             (A-09-1 1-010 10)

              Attached is the Health Resources and Services Administration 's (HRSA) response (0
              the OIG's draft report, " Fam il y Health Centers of San Diego, Inc. , Claimed Unall owable
              and Inadequate ly Documented Costs fo r Health Resources and Services Administration
              Grants Under the Recovery Act" (A·09-II-OI010). If you have any quest ions, please
              contact Sandy Seaton in HRSA 's Office of Federal Assistance Management at
              (301) 443-2432.


                                                       ~k                      II,?K..£;.
                                                           Mary K. Wakefield, Ph.D., R.N .

              Attachment
                                                                                               Page 2 of3




  Health Resources and Services Administration's Comments on the OIG Draft Report­
   "Family Health Centers of San Diego, Inc., Claimed Unallowable and Inadequately
  Documented Costs for Health Resources and Services Administration Grants Under the
                            Recovery Act" (A-09-1I-01010)

The Health Resources and Services Administration (HRSA) appreciates the opportunity to
respond to the above draft report. HRSA's response to the Office ofInspector General (OIG)
draft recommendations are as follows:

OIG Recommendation to HRSA:

We recommend that HRSA require the Health Center to refund to the Federal Government
$1 J 3,759 for unallowable rental costs and related indirect costs.

HRSA Response:

HRSA concurs with the OIG recommendation and will work with the Health Center to determine
the amount of unallowable costs, including rental and related indirect costs charged against the
HRSA grants and require that such amount be refunded to the federal government.

OIG Recommendation to HRSA:

We recommend that I-IRSA either require the Health Center to refw1d to the Federal Government
$4,425,966 for inadequately documented salary and salarYMrelated costs or work with the Heal th
Center to determine whether any of the costs claimed were allowable.

HRSA Response:

HRSA concurs with the OrG recommendation and will work with the Health Center to determine
which salary and salarYMrelated costs charged against the HRSA grants are allowable.

OIG Recommendation to HRSA:

We recommend that I-IRSA educate Health Center officials on the Federal requirement limiting
allowable rental costs under "less-than-armsMlength" leases.

HRSA Response:

HRSA concurs with the OIG recommendation and will educate the Health Center officials on the
federal requirement regarding rental costs under "less-than-arms-Iength" leases.
                                                                                               Page 3 of3




OIG Recommendation to URSA:

We recommend that HRSA ensure that the Health Center maintains personnel activity reports in
compliance with Federal requirements.

URSA Response:

HRSA concurs with the DIG recommendation and will ensure that the Health Center maintains
personnel activity reports for each employee who works on federal awards in compliance with
federal requirements.
